   DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                        Office of Audit Services, Region VII
                                                                        601 East 12th Street, Room 0429
                                                                        Kansas City, MO 64106



November 4, 2010

Report Number: A-07-10-04162

Andrew Allison, Ph.D.
Executive Director
Kansas Health Policy Authority
Room 900-N Landon State Office Building
Topeka, KS 66612

Dear Dr. Allison:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Sterilization Procedures in the Kansas Family
Planning Program. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email at
Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-10-04162 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF STERILIZATION
     PROCEDURES IN THE
   KANSAS FAMILY PLANNING
         PROGRAM




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-07-10-04162
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Kansas, the Kansas Health Policy Authority
(State agency) is responsible for administering the Medicaid program.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as either Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP ranged from 59.43 percent to 68.31 percent for claims
paid from July 1, 2005, through June 30, 2009.

Federal requirements also make provisions for various specified services to be reimbursed at
higher rates of FFP. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) authorize
reimbursement at an enhanced 90-percent FFP rate for family planning services. Section 4270 of
the CMS State Medicaid Manual (the manual) states that family planning services include those
that prevent or delay pregnancy or otherwise control family size and may include infertility
treatments. Pursuant to the provisions of the manual, only items and procedures clearly
furnished or provided for family planning purposes may be claimed at the enhanced 90-percent
FFP rate (90-percent FFP rate).

During State fiscal years 2006 through 2009, the State agency was reimbursed $2,973,959
($1,802,880 Federal share), for 968 child delivery procedures and family planning sterilization
procedures that were performed immediately after the child delivery procedures. We separately
reviewed costs totaling $19,997,484 ($17,997,736 Federal share) for specifically identified
family planning pharmacy claims, child delivery and newborn claims, and selected other family
planning services. We are addressing those costs in separate reports.

OBJECTIVE

Our objective was to determine whether the State agency properly claimed Medicaid family
planning sterilization procedures for Federal reimbursement for the period July 1, 2005, through
June 30, 2009.

SUMMARY OF FINDINGS

The State agency did not always properly claim Medicaid family planning sterilization
procedures for Federal reimbursement for the period July 1, 2005, through June 30, 2009,
because in most of these cases the State agency claimed Federal reimbursement twice for a
single service provided. For sterilization procedures that were performed immediately after child

                                                i
delivery procedures, the State agency claimed the costs associated with each such procedure two
times: first at the FMAP rate of Federal reimbursement and then again as a family planning
service at the 90-percent FFP rate, without making adjustments for the amounts previously
claimed at the FMAP rate of Federal reimbursement.

These errors occurred due to a weakness in the State agency’s internal reporting process. As a
result, the State agency received $485,982 in unallowable Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $485,982 to the Federal Government;

   •   determine and refund the Federal share of any additional amounts, related to family
       planning sterilization procedures that were performed immediately after child delivery
       procedures, that the State agency improperly claimed for the years prior to our audit
       period; and

   •   strengthen internal controls to ensure that family planning services submitted for Federal
       reimbursement are accurate by ensuring that Medicaid Management Information System
       edits appropriately identify claims that are ineligible for reimbursement at the 90-percent
       FFP rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first and third
recommendations.

The State agency described actions it would take to address our second recommendation.
Specifically, the State agency said that it will work with CMS to determine the amount of
additional funds, if any, that should be refunded to the Federal Government.

With respect to our third recommendation, the State agency said that it has “… already identified
the weakness in the State agency’s internal reporting process and corrected the process ….”

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

The corrective actions that the State agency described in its comments, when fully implemented,
will adequately address our recommendations. We verified that the State agency has corrected
the weakness in its internal reporting process, but we did not verify the refund to the Federal
Government.




                                                ii
                                                 TABLE OF CONTENTS
                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Kansas Medicaid Program ............................................................................... 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            Medicaid Management Information System .................................................... 2
            Quarterly Medicaid Statement of Expenditures for the
              Medical Assistance Program ...................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 3
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

      FEDERAL REQUIREMENTS .........................................................................................4

      IMPROPERLY CLAIMED MEDICAID FAMILY PLANNING
        STERILIZATION PROCEDURES .............................................................................4

      WEAKNESS IN INTERNAL REPORTING PROCESS ................................................ 5

      UNALLOWABLE FAMILY PLANNING SERVICES ...................................................5

      RECOMMENDATIONS ................................................................................................. 5

      STATE AGENCY COMMENTS .................................................................................... 6

      OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 6

APPENDIXES

          A: AMOUNT OF QUESTIONED COSTS BY QUARTER

          B: STATE AGENCY COMMENTS
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Kansas Medicaid Program

In Kansas, the Kansas Health Policy Authority (State agency) is responsible for administering
the Medicaid program. The State agency contracts with a fiscal agent, HP Enterprise Services
(formerly Electronic Data Systems), to maintain its Medicaid Management Information System
(MMIS), a computerized payment and information reporting system that processes and pays
Medicaid claims.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as either Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP ranged from 59.43 percent to 68.31 percent for claims
paid from July 1, 2005, through June 30, 2009. Federal requirements also make provisions for
various specified services to be reimbursed at higher rates of FFP.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish “… family planning services and
supplies … to individuals of child-bearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies ….” Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) authorize
reimbursement at a 90-percent FFP rate for family planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
also include infertility treatments. In addition, this provision of the manual generally permits an
enhanced 90-percent FFP rate (90-percent FFP rate) for the following items and services:
counseling services and patient education; examination and treatment by medical professionals
pursuant to States’ requirements; devices to prevent conception; and infertility services,
including sterilization reversals. Pursuant to the provisions of the manual, only items and
procedures clearly furnished or provided for family planning purposes may be claimed at the 90-
percent FFP rate.

                                                 1
CMS issued Financial Management Review Guide Number 20 (the guide) to the State agency via
Medicaid State Operations Letter 91-9. Section IV, E of the guide also states that sterilization is
a family planning service and can be reimbursed at the 90-percent FFP rate as long as a properly
completed sterilization consent form has been submitted by the patient to the Medicaid provider.

The State agency administers family planning services through the Kansas Medicaid Family
Planning Program. The State plan defines family planning services as any medically approved
treatment, counseling, drugs, supplies, or devices that are prescribed or furnished by a provider
to individuals of child-bearing age so those individuals can freely determine the number and
spacing of their children. The State plan says that family planning services provided by
physicians have no limitations; however, the State plan also specifies that services provided in
health departments are limited to one initial visit per customer, one annual visit per year, and
interim visits as needed.

During State fiscal years 2006 through 2009, the State agency was reimbursed $2,973,959
($1,802,880 Federal share), for 968 child delivery procedures and family planning sterilization
procedures that were performed immediately after the child delivery procedures. We separately
reviewed costs totaling $19,997,484 ($17,997,736 Federal share) for specifically identified
family planning pharmacy claims, child delivery and newborn claims, and selected other family
planning services. We are addressing those costs in separate reports.

Medicaid Management Information System

Providers enrolled in the Medicaid program submit claims for payment to the State agency’s
MMIS, which is maintained by the State agency’s fiscal agent. The State agency furnishes to
providers an MMIS provider manual that contains instructions for the proper completion and
submission of claims. The provider must complete certain fields on the electronic claim form to
indicate the type of service provided.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes actual Medicaid expenditures for each quarter
and is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures with
supporting documentation.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency properly claimed Medicaid family
planning sterilization procedures for Federal reimbursement for the period July 1, 2005, through
June 30, 2009.




                                                 2
Scope

We reviewed $2,973,959 ($1,802,880 Federal share) that the State agency claimed for child
delivery procedures and family planning sterilization procedures that were performed
immediately after the child delivery procedures and were reimbursed at the FMAP rate. (The
same sterilization procedures were also reimbursed at the 90-percent FFP rate from July 1, 2005,
through June 30, 2009.) We did not review the overall internal control structure of the State
agency or the Medicaid program. Rather, we reviewed only the internal controls that pertained
directly to our objective.

We performed fieldwork at the State agency’s offices in Topeka, Kansas, from July 2009
through February 2010.

Methodology

To accomplish our objective, we:

   •    reviewed Federal laws, regulations, guidance and the State plan;

   •    held discussions with CMS officials and acquired an understanding of CMS requirements
        and guidance furnished to State agency officials concerning Medicaid family planning
        claims;

   •    held discussions with State agency officials to gain an understanding of State agency
        policies, procedures, and guidance for claiming Medicaid reimbursement for family
        planning services;

   •    reconciled current period and prior period family planning claims reported on the
        CMS-64 report to the State agency’s supporting documentation;

   •    reviewed the State agency’s MAR-2140-Q Report (adjustments for the CMS-64 report)
        and interviewed the personnel responsible for this report to gain an understanding of the
        State agency’s policies and procedures for the use of this report; and

   •    provided the results of our review to State agency officials on February 11, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 3
                          FINDINGS AND RECOMMENDATIONS

The State agency did not always properly claim Medicaid family planning sterilization
procedures for Federal reimbursement for the period July 1, 2005, through June 30, 2009,
because in most of these cases the State agency claimed Federal reimbursement twice for a
single service provided. For sterilization procedures that were performed immediately after child
delivery procedures, the State agency claimed the costs associated with each such procedure two
times: first at the FMAP rate of Federal reimbursement and then again as a family planning
service at the 90-percent FFP rate, without making adjustments for the amounts previously
claimed at the FMAP rate of Federal reimbursement.

These errors occurred due to a weakness in the State agency’s internal reporting process. As a
result, the State agency received $485,982 in unallowable Federal reimbursement.

FEDERAL REQUIREMENTS

Federal cost principles at 2 CFR pt. 225, Cost Principles for States, Local, and Indian Tribal
Governments (formerly Office of Management and Budget Circular A-87), Appendix A,
§ 225(C)(2), state:

       Reasonable costs. A cost is reasonable if, in its nature and amount, it does not
       exceed that which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the cost. The question of
       reasonableness is particularly important when governmental units or components
       are predominately federally funded. In determining reasonableness of a given
       cost, consideration shall be given to: ….

       e. Significant deviations from the established practices of the governmental unit
          which may unjustifiably increase the Federal award’s cost.

CMS’s Program Manual – State Medicaid, Pub. No. 45, Part 2 – State Organization and
General Administration, section 2500.1 (B), line 8, states:

       Where expenditures have been claimed at an inappropriate reimbursement rate,
       deduct the original claim on Line 10.B and reclaim it on Line 8 using the revised
       rate. For example, if you had claimed MMIS expenditures at the 50 percent FFP
       rate and you later determine that the expenditures should have been claimed at the
       75 percent FFP rate, deduct the expenditures at the 50 percent FFP rate on Line
       10.B. Reclaim the expenditures at the 75 percent FFP rate on Line 8.

IMPROPERLY CLAIMED MEDICAID FAMILY PLANNING
STERILIZATION PROCEDURES

The State agency did not properly claim Medicaid family planning sterilization procedures for
Federal reimbursement for the period July 1, 2005, through June 30, 2009, because in most of
these cases the State agency claimed Federal reimbursement twice for a single service provided.

                                                4
Specifically, in 921 of the 968 cases that we reviewed in which the State agency claimed Federal
reimbursement for sterilization procedures that were performed immediately after child delivery
procedures, the State agency claimed the costs associated with each such procedure two times:
first at the FMAP rate of Federal reimbursement and then again as a family planning service at
the 90-percent FFP rate. In these 921 cases the State agency claimed $806,243 1 for sterilization
procedures as family planning services at the 90-percent FFP rate without making an adjustment
for the amount previously claimed, for the same procedure, at the FMAP rate of Federal
reimbursement. The 921 cases in which the State agency improperly claimed Federal
reimbursement all took place in the first 13 quarters of our audit period (July 1, 2005, through
September 30, 2008).

For the last three quarters of our audit period (October 1, 2008, through June 30, 2009), the State
agency made changes in its procedures. We verified that during these three quarters, the State
agency did not claim the costs associated with cases twice. Specifically, for the other 47 cases
(of the 968 cases we reviewed during the audit) in which sterilization procedures were performed
immediately after child delivery procedures, the State agency claimed costs only once.

WEAKNESS IN INTERNAL REPORTING PROCESS

These errors occurred due to a weakness in the State agency’s internal reporting process, an
established process that had been in place for at least 10 years prior to our audit period.

The State agency’s previous fiscal agent established the policy of (1) identifying sterilization
procedures from child delivery claims that had been previously reimbursed by the Federal
Government, and then (2) claiming Federal reimbursement a second time, for the same
sterilization procedures, at the family planning 90-percent FFP rate without making the required
reduction to the regular FMAP rate.

UNALLOWABLE FAMILY PLANNING SERVICES

Because the State agency did not properly claim Medicaid family planning sterilization
procedures, it received $485,982 (Federal share) in unallowable Federal reimbursement for the
period July 1, 2005, through September 30, 2008.

RECOMMENDATIONS

We recommend that the State agency:

    •    refund $485,982 to the Federal Government;




1
  The sterilization amount was the difference between a child delivery with sterilization and a child delivery without
sterilization.

                                                          5
   •   determine and refund the Federal share of any additional amounts, related to family
       planning sterilization procedures that were performed immediately after child delivery
       procedures, that the State agency improperly claimed for the years prior to our audit
       period; and

   •   strengthen internal controls to ensure that family planning services submitted for Federal
       reimbursement are accurate by ensuring that MMIS edits appropriately identify claims
       that are ineligible for reimbursement at the 90-percent FFP rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first and third
recommendations.

The State agency described actions it would take to address our second recommendation.
Specifically, the State agency said that it will work with CMS to determine the amount of
additional funds, if any, that should be refunded to the Federal Government.

With respect to our third recommendation, the State agency said that it has “… already identified
the weakness in the State agency’s internal reporting process and corrected the process ….”

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

The corrective actions that the State agency described in its comments, when fully implemented,
will adequately address our recommendations. We verified that the State agency has corrected
the weakness in its internal reporting process, but we did not verify the refund to the Federal
Government.




                                                6
APPENDIXES
              APPENDIX A: AMOUNT OF QUESTIONED COSTS BY QUARTER
                           July 1, 2005, through June 30, 2009

                                                                      Total
                                           Total                  Sterilization
                                        Sterilization             Questioned
                                        Questioned                  Costs
                        Qtr Ending         Costs        FMAP 1   Federal Share
                         09/30/2005        $68,102      61.01%     $41,549
                        12/31/2005          97,863      60.41%      59,119
                        03/31/2006         157,155      60.41%      94,937
                        06/30/2006          90,509      60.41%      54,677
                        09/30/2006          77,354      60.41%      46,730
                        12/31/2006          75,505      60.25%      45,492
                        03/31/2007          57,687      60.25%      34,756
                        06/30/2007          35,096      60.25%      21,145
                        09/30/2007          28,217      60.25%      17,001
                        12/31/2007          44,012      59.43%      26,156
                        03/31/2008          24,857      59.43%      14,773
                        06/30/2008          26,752      59.43%      15,899
                        09/30/2008          23,134      59.43%      13,748

                         Total              $806,243              $485,982




1
    Federal medical assistance percentage
                                                                                                                                            Page 1 of 2



                                APPENDIX B: STATE AGENCY COMMENTS



             Coordinating health & health care
             for a thriving Kansas



                                 HPA
                                KANSAS HEALTH POLICY AUTHORITY


                                                           September 29,2010


Mr. Patrick Cogley
Regionallnsrector General
601 East 121 Street
Room 0429
Kansas City, Missou ri 64106

Dear Mr. Cogley:

The Kansas Health Policy Authority (KHPA) has received the draft report entitled "Review of
Sterilization Procedures in the Kansas family Planning Program ." This letter is KH PA's response to
the Office of Inspector General (OIG) Audit Report A-07-1 0-04162 .

OIG Recommendation

      1. 	We recommend that the State agency:
                • 	 Refund $485 ,982 to the federal Government;
                • 	 Determine an d refund the Federal share of any additional amounts , related to family
                    planning sterilization procedu res that were performed immediately after child
                    delivery procedures , that the state agency improperly claimed for the years prior to
                    our audit period ; and
                • 	 Strengthen internal controls to ensure that family planning services submitted for
                    Federal reimbursement are accurate by ensuring that Medicaid management
                    Information System edits appropriately identify claims that are ineligible for
                    reimbursement at the 90-percent FFP rate .

           KHPA Response:

KHPA concurs 'vVith the first part of the recommendation and is already taking steps to work 'vVith C MS
to have them reduce the federal award by $485 ,981 for the quarter ending 9- 30-10.

In the exit conference , the OIG auditor confirmed that during the period of the audit, State Fiscal Year
2006 - 2009 , KH PA inadvertently reported claims for sterilization services du e to an intemal
accounting process which was identified and corrected during the OE 12-31-08. After KHPA learned
of this longstanding error, the OIG began its audit process and we waited for confirmation of the
amounts owed back to the Federal govemment in previous quarters . With that confirmation , KHPA
                                      Rm 900 ·N, LsndonELi lding 900 SW Jac'soo S .. ee~ Tope... KS 666 12· 1220
                                                                w1vw.khp a.ks.gov
Medi caid aM H e oJthWav: ' 	                              S tate Empl pyee H ,Nth PlAt)"                          St fl18 Se lfIpmrAP COFund
Phooe:     785·296·3981                                    Phone:     785·368· 636 1                               Phone:     78 5· 296·236 4
Fax.       785.296·4& 13                                   Fax.       785·368·7 180                                Fe.x       785·296·6995
                                                                                                  Page 2 of 2




informed the OIG on August 25 th that we are now making the appropriate adjustments for the
previous quarters on the eMS 64.

With regard to the second recommendation, KHPA will work with eMS to evaluate an approach that
would be required to determine the amount of additional Medicaid funds, if any, that KHPA should
refund to the Federal Government.

KHPA concurs with the OIG's third recommendation to strengthen internal controls. KHPA has
already identified the weakness in the State agency's internal reporting process and corrected the
process during the QE 12-31-08.

KHPA lacks the resources to audit every aspect of the Medicaid program at this level of detail, and
recognizes the contribution that this and other external audits make to the integrity of the program.
KHPA appreciates the efforts of the OIG staff in conducting this audit and their willingness to discuss
issues during the audit process.

Thank you for the opportunity to respond to this draft audit report.



                                          Sincerely,




                                          IAndrew Allison, PhDI
                                          Executive Director
